                                           NATIONAL SCIENCE FOUNDATION
                                           OFFICE OF INSPECTOR GENERAL
                                             OFFICE OF INVESTIGATIONS

                                     CLOSEOUT MEMORANDUM

 Case Number: A12080050                                                          Page 1 of 1


         We received an allegation that the subjectl violated the confidentiality of NSF's
         merit review by posting a proposal2 on his university webpage. We verified the full
         proposal was accessible by the link provided as well as by use of a search engine.
         We checked NSF's reviewer database and learned the subject reviewed the proposal
         approximately six years ago.
         We contacted the subject who told us he was travelling and put the proposal on his
         webpage so his assistant could print it for him, but he forgot to delete it afterward.
         He apologized and deleted the proposal. We sent the subject a letter admonishing
         him for the violation and reminding him of the importance of protecting the
         confidentiality of NSF's review process. This case is closed with no further action
         taken.




NSF OIG Form 2 (11 /02)
